218 Commerce Street
P.O. Box 4160
Montgomery, AL 36103-4160
(800) 898-2034
BeasleyAllen.com
Rhon E. Jones
Principal and Toxic Torts Section Head
rhon.jones@beasleyallen.com

VIA ELECTRONIC FILING & FEDERAL EXPRESS
October 26, 2020
Hon. Scott S. Harris, Clerk
Supreme Court of the United States
Office of the Clerk
1 First Street, N.E.
Washington, D.C. 20543
RE:

Aladdin Manufacturing Corporation, et al. v. The Water Works and Sewer
Board of the Town of Centre, et al.; (No. 20-231)
Rule 30.4 Motion to Extend Time to File Brief in Opposition

Dear Mr. Harris:
I represent the Respondents, the Water Works and Sewer Board of the Town of Centre and
the Water Works and Sewer Board of the City of Gadsden, in the above referenced case. I am
writing in response to your letter dated October 15, 2020 which requests that the Respondents file
a response to the petition for writ of certiorari by November 16, 2020.
Pursuant to Rule 30.4, Respondents respectfully request an extension of thirty (30) days,
up to and including December 16, 2020, within which to file its brief in opposition. Counsel of
record for the Petitioners stated that Petitioners have no objection to the requested extension.
Respondents submit this request for two reasons.
First, Respondents are currently communicating with organizations interested in filing an
amicus curiae brief in support of Respondents pursuant to Rule 37. Rule 37.2(a) requires that any
amicus curiae brief be submitted within the same deadline as Respondents’ brief in opposition
which is November 16, 2020. A Motion for Leave to file an amicus curiae brief was jointly filed
by the Chamber of Commerce of the United States, the Georgia Chamber of Commerce, and the
National Federal of Independent Businesses on September 28, 2020 and is currently pending
before the Court. Respondents respectfully request an extension to ensure that the potential amici
in support of Respondents have sufficient time for review and submittal before the deadline.
Second, I am counsel of record in this matter and am currently scheduled to be in several
depositions from October 26th until November 19th. These depositions were scheduled after

conferring with multiple attorneys and state agencies to reach a mutually agreeable time that fit
within a tight discovery schedule entered by the court.
The requested extension will not materially delay consideration of the petition, as the Court
could still consider the petition at a conference during the current Term. Thank you for
consideration of this request.
Respectfully Submitted,
_______________________
RHON E. JONES
Beasley, Allen, Crow, Methvin, Portis & Miles, P.C.
218 Commerce Street
Montgomery, Alabama 36104
Cc:

Counsel of Record on attached service list

Service List
Counsel for Aladdin Manufacturing Corporation, et al.:
Thomas H. Dupree, Jr.
Gibson, Dunn & Crutcher, LLP
1050 Connecticut Ave., NW
Washington, DC 20036
(202) 955-8500
tdupree@gibsondunn.com
Counsel for Lexmark Carpet Mills, Inc.:
John W. Scott
Scott Dukes & Geisler, P.C.
211 Twenty-Second Street North
Birmingham, AL 35203
205-251-2300
jscott@scottdukeslaw.com
Counsel for Arrowstar, LLC:
Warren N. Coppedge Jr.
Coppedge, Michmerhuizen, Rayburn I Attorneys at Law
508 S. Thornton Avenue
Dalton, GA 30720
706-226-0040
warren@coppedgefirm.com
Counsel for Dorsett Industries, Inc.:
M. Jerome Elmore
Bondurant, Mixson & Elmore
1201 West Peachtree Street
Suite 3900
Atlanta, GA 30309
404-881-4135
elmore@bmelaw.com

Counsel for Oriental Weavers USA, Inc.:
David Christopher Higney
Grant Konvalinka & Harrison
633 Chestnut Street, Suite 900, Republic Centre
Chattanooga, TN 37450

423-756-8400
dhigney@gkhpc.com
Counsel for Textile Rubber and Chemical Company, Inc.:
Stephen E. O'Day
Smith, Gambrell & Russell, LLP
1230 Peachtree Street, N.E.
Suite 3100, Promenade
Atlanta, GA 30309-3592
404-815-3527
soday@sgrlaw.com
Counsel for MFG Chemical, Inc.:
Clyde Craddock Owen Jr.
Ball, Ball, Matthews & Novak
RSA Dexter Avenue Building
445 Dexter Avenue, Ste. 9045
Montgomery, AL 36104-0000
334-387-7680
ccowen@ball-ball.com
Counsel for The Dixie Group, Inc.:
Robert Foust Parsley
Miller & Martin, PLLC
832 Georgia Avenue, Suite 1200
Chattanooga, TN 37402
423-785-8211
Bob.Parsley@millermartin.com

Counsel for Engineered Floors, LLC and J&J Industries, Inc.:
Mitchell Craig Smith
Miller and Martin PLLC
832 Georgia Ave., Suite 1000
Volunteer Building
Chattanooga, TN 37402
423-785-8274
craig.smith@millermartin.com
Counsel for The Chamber of Commerce of the United States of America, the Georgia Chamber
of Commerce, and the National Federation of Independent Business:

Ashley C. Parrish
King & Spalding
1700 Pensylvania Ave., NW
Suite 200
Washington, DC 20006-2706
202-626-2627
aparrish@kslaw.com

